No. 20-5489
IN THE

Supreme Court of the United States
RODNEY LAVALAIS,
v.

Petitioner,

UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF WORD COUNT
Pursuant to Rule 33.1(h) of the Rules of this Court, I certify that the
accompanying Reply Brief of Petitioner Rodney Lavalais, which was prepared using
Century Schoolbook 12-point typeface, contains 1,930 words, excluding the parts of
the document that are exempted by Rule 33.1(d). This certificate was prepared in
reliance on the word-count function of the wordprocessing system (Microsoft Word)
used to prepare the document. I declare under penalty of perjury that the foregoing
is true and correct.
Respectfully submitted this 14th day of October, 2020.

/s/ Celia C. Rhoads
CELIA C. RHOADS
Assistant Federal Public Defender
Office of the Federal Public Defender
500 Poydras Street, Suite 318
Hale Boggs Federal Building
New Orleans, Louisiana 70130
(504) 589-7930
celia_rhoads@fd.org

